UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL


   STATEMENT OF KATHLEEN S. TIGHE

      DEPUTY INSPECTOR GENERAL



                Before the

       SUBCOMMITTEE ON INTERIOR,

  ENVIRONMENT, AND RELATED AGENCIES

     COMMITTEE ON APPROPRIATIONS

      U.S. HOUSE OF REPRESENTATIVES

            FEBRUARY 12, 2008
                                                                                                 1


Good morning, Chairman Dicks, Ranking Member Tiahrt, and Members of the Subcommittee.
Thank you for inviting the Office of Inspector General (OIG) at the Department of Agriculture
(USDA) to testify before you today to discuss our recent work pertaining to the U.S. Forest
Service’s (FS) wildfire management programs. OIG continues to devote extensive resources to
evaluate and improve USDA’s management of its public assets and resources, including FS and
its National Forest System (NFS) lands.       We are committed to conducting reviews of FS
programs and activities to assist agency officials and members of this subcommittee in their
respective executive and legislative branch actions.


During fiscal years (FY) 2004–2007, OIG issued 32 FS audits with a total monetary benefit of
over $46 million. During the same period, OIG opened 50 investigations related to FS programs
and operations and achieved monetary results of $17.3 million. U.S. Attorneys secured 22
convictions in cases supported by OIG investigations related to FS in this period. Currently, in
FY 2008, we have 15 audits either ongoing or planned regarding FS programs and operations.


As requested by the Subcommittee, my testimony will present an overview of our recent work
and related findings and recommendations regarding FS’ wildfire management programs.


USDA, through FS, is responsible for the management of our Nation’s 155 national forests and
20 grasslands. These lands cover more than 192 million acres. FS officials face significant
challenges in their important stewardship activities. The most recent fire season demonstrates
the increasing scope and complexity of these challenges. For comparison, consider that from FY
1998 through FY 2006, wildfire suppression costs averaged $994 million annually (adjusted for
inflation). The recent fire season’s suppression costs are estimated at $1.374 billion.


In the last several years, OIG completed three audits that evaluated certain aspects of FS wildfire
management programs. These audits covered topics relating to large fire suppression costs,
implementation of the Healthy Forests Initiative (HFI), and effectiveness of the Air Safety
Program. Additional audit initiatives are underway relating to FS use of contracted labor crews,
replacement plans for aerial resources, the agency’s acquisition practices related to information
technology hardware and software, and its efforts in firefighting succession planning.
                                                                                                2


Additionally, OIG is investigating the tragic deaths of five FS firefighters in the Esperanza Fire
that occurred near Cabazon, California, in October 2006. Summarized below are the results or
planned actions for each of these topics.


I.      Large Fire Suppression Costs


As part of FS’ ongoing effort to contain wildfire suppression costs and increase the Wildland
Fire Management Program’s accountability, FS senior management requested that OIG evaluate
FS’ controls over its wildfire suppression costs. FS wanted OIG to take an objective and
unbiased look at FS’ current large fire management practices. Our primary objective was to
evaluate the controls FS had in place to contain wildfire suppression costs. Specifically, we
sought to (1) determine whether FS ensured that non-Federal entities paid an equitable share of
wildfire suppression costs, (2) evaluate whether wildland fire use (i.e., the management of
naturally ignited wildland fires to accomplish specific management objectives like fuels
reduction) was optimized, and (3) assess the cost effectiveness of FS wildfire suppression
activities.


Suppression Costs Driven by Efforts to Protect Private Property


The Federal Wildland Fire Management Policy of 1995 and its 2001 update direct Federal fire
management agencies, including FS, to safely suppress wildfires on Federal lands at minimum
cost considering the relative values of property and natural resources at risk. The Federal
Wildland Fire Management Policy also makes State and local governments responsible for
protecting structures within the Wildland Urban Interface (WUI) from fire.


We found that the majority of FS’ large fire suppression costs are directly linked to protecting
private property in the WUI. The number of private homes being built in the WUI is increasing
each year. The Federal Government has little or no control over this property development that
has a major impact on FS fire suppression costs.        Much of this development is basically
unregulated from a fire protection standpoint. Many communities have few or no regulations
mandating the use of fire resistant building materials or establishing/maintaining fire safe areas
                                                                                                3


around structures. FS suppression costs are likely to continue to rise because current public
expectations and uncertainties among Federal, State, and local fire management agencies about
fire protection roles and responsibilities compel FS to suppress fires when private property is at
risk, even when fires pose little threat to NFS lands. Giving natural resource protection an equal
priority to private property protection in the WUI (or conducting any sort of cost/benefit
analysis) is considered by FS managers to be politically infeasible.


Although the Federal Wildland Fire Management Policy makes State and local governments
primarily responsible for protecting structures in the WUI, at the time of our audit, FS managers
had not renegotiated their agreements with State and local governments to apportion
responsibilities and costs as required. State and local governments control building and zoning
in the WUI. However, protection areas have not been redefined to reflect State and local
governments’ responsibilities accompanying this growth. FS managers continue to make it a
priority to protect private property over natural resources. Consequently, FS WUI protection
expenditures have increased rather than decreased.


In FY 2003 and 2004, about 87 percent of the large wildfires we reviewed identified protecting
private property as a major objective for the suppression effort. Some FS managers estimate that
between 50 to 95 percent of large wildfire costs borne by the agency are directly related to
protecting private property in the WUI. Based on these estimates, FS spent as much as $1 billion
during those 2 years protecting private properties in the WUI.


To ensure that the burden of protecting property in the WUI is shared equitably among the
Federal, State, and local entities involved, we recommended that FS seek clarification from
Congress as to the responsibilities of both FS and its non-Federal partners to protect private
properties threatened by wildfires. FS should renegotiate wildfire protection agreements as
appropriate. The Federal Government should also find ways to encourage State and local
governments to enact and vigorously enforce “Firewise” building and zoning codes.
                                                                                                4


Use of Wildland Fire Should Be Expanded To Control Costs of Future Fires


Wildland fire use (WFU) lets naturally occurring fires burn accumulated hazardous fuels that
increase the likelihood of large expensive wildfires. Naturally occurring forest fires can also be
beneficial for forest and plant health by returning the forests back to their natural state. To
control the risk of costly, catastrophic wildfires, the Federal Wildland Fire Management Policy
specifies that FS give WFU and fire suppression equal consideration. However, FS’ firefighting
policies and the lack of qualified WFU personnel restricted FS managers from doing so.


At the time of our audit, under FS fire policies, FS could manage a fire for either WFU or
suppression. Once a fire has been fought for suppression, it could not again be managed for
WFU. Concerns that a natural fire could potentially escape FS control if not suppressed and the
protection expectations of private landowners in nearby communities resulted in most NFS fires
being initially treated as suppression. Potentially beneficial fires may be suppressed because of
the restriction on switching firefighting management objectives. Of the almost 80,000 natural
ignitions that occurred on FS land from 1998 through 2005, approximately 1,500—only 2
percent—were allowed to burn as WFU. In addition, FS managers had access to far fewer teams
for WFU (7) than teams for suppression (55). FS estimates that it needs to have 300 fire use
managers to be able to select WFU as a strategy for all eligible fires. At the time of our audit,
the agency had only 83 fire use managers.


The restrictive policies and lack of qualified personnel contributed to the overwhelming
predisposition for FS to suppress fires rather than let them burn as WFU. Consequently, FS may
have missed opportunities to reduce the hazardous fuels that contribute to large, expensive fires
and may have unnecessarily spent millions of dollars suppressing wildland fires.


To address the need to optimize wildland fire use, we recommended that FS modify current
policies to allow (1) concurrent management of wildland fires for both WFU and suppression,
(2) transition between WFU and suppression, and (3) management of wildfire suppressions to
accomplish fuel reductions. We also recommended that FS prioritize funding to accomplish the
staffing and training changes needed to implement an expanded WFU program.
                                                                                                                    5


FS Cost-Containment Controls Need To Be Strengthened


FS has developed internal controls to strengthen financial accountability for line officers and
incident commanders. However, we found that the cost-effectiveness of managers’ and incident
commanders’ decisions and oversight were neither tracked during the fire nor evaluated
afterwards. In addition, the agency’s performance measures and reporting mechanisms did not
adequately allow FS management to assess the effectiveness of its wildfire suppression cost
containment efforts, because the information FS summarized at the end of each fire season
lacked essential data (such as the kinds of critical infrastructure or natural resources lost or
saved) that policymakers need to evaluate FS suppression activities in relation to the monies
spent.


We also determined that FS national and regional wildfire cost-containment reviews have limited
effectiveness in identifying and correcting suppression cost inefficiencies, because they (1) did
not sufficiently address large cost factors such as the selection of suppression alternatives and the
effectiveness of tactics, (2) did not help to improve performance because identified problems
were not communicated to affected parties and corrected, and (3) did not occur with sufficient
frequency.


We recommended that FS (1) develop a reporting mechanism to gather and summarize more
meaningful wildfire suppression information, (2) increase the accountability of line officers and
incident commanders by incorporating into their evaluations an assessment of strategic and
tactical cost-effectiveness, and (3) formalize newly developed wildfire cost assessment review
procedures in FS directives and provide training to FS staff members who perform the reviews.


FS’ Response to OIG’s Findings and Recommendations

In response to OIG’s report, FS has changed its policies on WFU and has expanded its use of
what it terms “Appropriate Management Response” (AMR). 1 In conjunction with the

1
 Appropriate Management Response (AMR) is an approach to firefighting that treats each fire individually,
accounting for threats to lives and property first, but also weighing factors like ecology and landscape. The AMR
can range from aggressively suppressing a wildland fire to managing an incident as a wildland fire use event.
                                                                                                 6


Department of the Interior and the States, FS modified its AMR practices in FY 2007 to
emphasize the full range of options available under current Federal Wildland Fire Management
policy. The agency estimates that AMR and other actions to achieve management efficiencies
helped it avoid approximately $200 million in FY 2007 suppression costs. FS is currently
developing a formal process to quantify these savings. FS has requested OIG review the basis of
this process to help ensure its reasonableness. OIG personnel will work with FS staff on this
evaluation. FS has already taken steps to accomplish the needed staffing and training so that
more firefighters can be qualified and available for critical positions to manage WFU events on
incident command teams.


FS has reported that it has completed guidance for new State master agreements and is currently
renegotiating the agreements with States, as recommended by OIG. The agency advises that it
has executed new or modified existing agreements with 27 States, and the renegotiation process
is ongoing with an additional 17 States.


In further response to our recommendations, FS has made significant progress in improving the
effectiveness of its cost containment reviews. The agency advised OIG that it has issued new
guidelines and standards for the conduct of the reviews and has instituted formal yearly training.
FS is working with other land management agencies to establish an interagency set of standards
and training, and it has coordinated closely with OIG to ensure the standards and training
necessary to meet the agency’s needs. This year the pre-fire season training sessions will be
attended by members from multiple land management agencies and also the Department of the
Interior’s OIG. We will continue to work with FS to improve the effectiveness of its wildfire
cost containment reviews.


II.    IMPLEMENTATION OF THE HEALTHY FORESTS INITIATIVE


FS has estimated that 73 million acres of the land it manages and 59 million acres of privately
owned forest land are at high risk of ecologically destructive wildland fire. One of the most
extensive and serious problems related to the health of national forests is the over accumulation
of dead vegetation that can fuel fires. The increase in the amount of hazardous fuels is the result
                                                                                                   7


of several major factors. First, extended drought conditions have significantly increased the
amount of unhealthy or dead forests and vegetation. Second, widespread disease and insect
infestations have killed or affected the health of large areas of national and private forestland.
Third, past fire suppression practices of the Federal, State, and local governments, companies,
and individuals have prevented the natural use of WFU to reduce the accumulation of hazardous
fuels.


It has been estimated by some FS managers that hazardous fuels are accumulating three times as
fast as they can be treated. The accumulation of hazardous fuels has contributed to an increasing
number of large, intense, and catastrophically destructive wildfires. Reducing the buildup of
hazardous fuels is crucial to reducing the extent, severity, and costs of wildfires.


The HFI was launched in August 2002 by President Bush with the intention of reducing the risks
severe wildfires pose to people, communities, and the environment. The HFI includes a number
of policy, program, and legislative changes to help achieve this. One of the primary goals of the
HFI is to reduce the threat of wildfire by removing hazardous fuels from areas in national forests
that constitute the greatest threats of catastrophic fire. Catastrophic fires can destroy hundreds of
thousands of acres at one time, burn entire communities, destroy watersheds that are the source
of water for millions of people, and take the lives of community residents and firefighters. These
fires can burn with such intensity that they change the composition of the landscape and soil for
generations. A catastrophic wildfire can grow to such an extent that it creates its own weather
pattern and becomes physically impossible to suppress without the assistance of nature (i.e.,
significant amounts of rain).     In the 2007 fire season, one set of fires in Georgia burned
approximately 468,000 acres (731 square miles). This is approximately 2.4 times larger than the
entire land area of New York City or about 12 times that of Washington, D.C. The series of
wildfires that began burning across Southern California in October 2007 destroyed at least 1,500
homes and burned over 500,000 acres of land from Santa Barbara County to the U.S. – Mexico
Border. Nine people died as a direct result of the fires and 85 others were injured, including at
least 61 firefighters. By the second day of the fire, approximately 500,000 people from at least
346,000 homes were under mandatory orders to evacuate, the largest evacuation in the region's
                                                                                                  8


history. The 2007 Murphy Fire in Idaho burned over 650,000 acres – more than 1,000 square
miles.


In September 2006, OIG completed an audit that evaluated FS efforts to implement the HFI. We
focused our audit work on the agency’s hazardous fuels reduction program. Fire and fuels had
been listed as one of the four major threats to the health of the Nation’s forests by the Chief of
FS. More than half of FS’ funding under the HFI is allocated for fuels reduction. For FY 2005,
2006, and 2007, the FS budget for hazardous fuels reduction was approximately $262 million,
$281 million, and $291 million, respectively. Our review evaluated the methods used by FS to
identify, select, and fund fuel reduction projects. We also evaluated how the agency recorded
accomplishments.


Specifically, our audit evaluated FS management controls to (1) determine if the hazardous fuels
reduction projects that were conducted were cost beneficial, (2) how FS identified and prioritized
such projects, (3) the agency’s process for allocating funds among projects in different regions,
and (4) the agency’s process to report hazardous fuels reduction accomplishments.


Assessment of Risk


OIG found that FS lacked a consistent analytical process for assessing the level of risk that
communities faced from wildland fire and determining if a hazardous fuels project would be cost
beneficial. FS had not developed specific national guidance for weighing the risks against the
benefits of fuels treatment and restoration projects.


In order to allocate resources most effectively, it is important for FS to be able to identify which
communities and what NFS resources are at risk. FS needs to be able to determine the level of
risk for significant and destructive wildland fires throughout the NFS and what the potential
benefit or payback would be from conducting a specific fuels reduction project. While we
agreed with FS that a traditional cost benefit analysis would be impractical, we concluded that
FS could develop a set of criteria to compare the relative degrees of exposure and risk to
                                                                                                 9


wildland fire that each community faces. The assessment should include a measure of the
benefits and/or consequences of selecting one project over another for treatment.


During the period of our review, FS’ nine regions each had different ways of identifying
priorities. Because of this, FS could not adequately compare hazardous fuels reduction projects
among regions. This affected the ability to identify, on a national basis, those projects that
should be funded and completed first. While some areas or communities may be at high risk
from wildfires, it may not be effective for FS to spend large sums of money on hazardous fuels
reduction projects if nearby communities have not enacted and enforced Firewise regulations. A
community’s lack of Firewise regulations could significantly reduce the effectiveness of any FS
efforts to reduce hazardous fuels around the community.


Prioritizing and Funding Projects

At the time of OIG’s audit, FS also did not have the ability to ensure that the highest priority
fuels reduction projects were funded first. Because projects were not prioritized under uniform,
national criteria, there was no systematic way to allocate funds to the most critical projects.
Funds were allocated based upon a region’s historical funding levels and targets for number of
acres to be treated that are set by the FS Headquarters office in Washington, D.C. There were no
controls in place to prevent funds from being allocated to projects in order to achieve targets of
acres treated instead of reducing the most risk. This could lead to less important projects being
funded.


We recommended that FS develop and implement specific national guidance for assessing the
risks wildland fires present to residents and communities and determining the comparative value
and benefit of fuels treatment/restoration projects. We also recommended that FS establish
controls to ensure that the process and methodology to identify and prioritize the most effective
fuels reduction projects can be utilized at all levels to ensure funds are distributed according to
the priority of the projects. This process should have uniformity (and comparability) from the
local level (districts) through to the Headquarters office and across geographic boundaries (i.e.,
among regions).
                                                                                                                    10


Performance Measures and Reporting Standards


We found that FS’ performance measures and reporting standards did not provide adequate
information to evaluate the effectiveness of a fuel treatment practice. They did not communicate
to either FS managers or other stakeholders whether the treatment of an acre of forest had
resulted in changing its condition class 2 or if the project reduced the risk from catastrophic
wildland fire. The agency’s focus has been on achieving firm annual targets (output) that are
measured in the number of acres treated. However, these acres are not homogenous, meaning
that some acres of hazardous fuels create much more risk to communities and resources than
others. Reporting the number of acres treated did not communicate the amount of risk that has
been reduced. Focusing only on acres treated does not communicate key information on the
effectiveness of the treatment practice. In addition, hazardous fuels accomplishment reports did
not provide detailed information to evaluate the overall progress of the program; details such as
the location of treatments, changes in condition class, and initial or maintenance treatments are
not reported.


We recommended that FS develop and implement a more meaningful and outcome-oriented
performance measure for reporting metrics, such as acres with “risk reduced” or “area
protected.” Also, FS should direct that implementing effective integrated treatments is more
important than solely meeting acreage targets.                   We also recommended that FS improve
accomplishment reporting by including more detailed information, such as breaking down
accomplishments by region, noting changes in condition class, and differentiating between initial
and maintenance treatments and multiple treatments on the same acres.


FS responded positively to OIG’s audit findings and each of our HFI program recommendations
and committed to take action on them. While the agency has initiated corrective actions, we
believe much progress remains to be achieved.                     A recent GAO report on Wildland Fire



2
  The fire-regime condition class is an expression of the departure of the current condition from the historical fire
regime resulting in alterations to the ecosystem. A condition class is measured as a 1, 2, or 3, with 3 being the most
significant departure from the historical fire regime. Activities that cause the departure include fire exclusion,
timber harvesting, grazing, growth of exotic plant species, insects, and disease.
                                                                                               11


Management (GAO-07-1168, September 2007) identified several areas where FS had not
implemented or was still in the process of implementing our recommendations.


III.   AIR SAFETY


OIG’s Review of FS’ Air Safety Program for Firefighting Aircraft


To address concerns about the airworthiness of firefighting aircraft, we audited the Forest FS Air
Safety Program to determine whether it minimizes the risk of accidents and contributes to the
effective use of aerial resources. Our audit report has just been issued and will be provided to
the Subcommittee this week. I would like to provide Members of the Subcommittee with brief
background information on FS’ Air Safety Program, followed by the major findings and
recommendations from our audit.


Background on Air Safety Concerns and FS’ Firefighting Aircraft Activities


Currently, FS uses firefighting aircraft that have not been independently assessed for wildfire
suppression duties or certified as designed to fly in a particular firefighting environment.
Generally, FS firefighting aircraft—whether they are owned by or contracted for the agency, or
loaned to State and local governments—are exempt from Federal Aviation Administration
(FAA) requirements and oversight.


Often firefighting aircraft undergo stresses well above those experienced in the flying
environments for which they were originally intended.         Because the fire environment is
significantly different from that for which the aircraft were designed, it is imperative to ensure
that these aircraft can withstand the additional stresses of a fire environment. FS advised OIG
that since FAA does not perform this function, FS has assumed this responsibility, but it does not
have the technical and financial resources to adequately do so. It is our understanding that the
funds FS uses to perform this task have come at the expense of other programs.
                                                                                                            12


From 1979 to present, there have been six fatal accidents due to in-flight structural failure
involving air tankers under contract to FS. Between 1979 and 1987, three aircraft crashed while
fighting fires, claiming the lives of seven crewmembers. Since 1994, there have been three
additional firefighting crashes—two in 2002—which claimed the lives of all eight crewmembers.
Overall, during the last two 5-year periods (1996-2000 and 2001-2005), the number of accidents
for all FS firefighting aircraft has climbed from 17 to 28.


After the accidents in 2002, FS commissioned a blue-ribbon panel to identify weaknesses in its
air safety program. 3 In December 2002, the panel reported that FAA’s approval process for FS’
public-use aircraft did not establish that aircraft could safely perform firefighting duties. Since
the panel’s purpose was limited to identifying problems, it did not recommend what steps FS
needed to take to improve its Air Safety Program.


In 2004, the National Transportation Safety Board (NTSB) also released a report on FS’ Air
Safety Program; the NTSB did issue recommendations.4 Similar to the blue-ribbon panel’s
findings, NTSB found that FS had no effective mechanism to ensure the continuing
airworthiness of its firefighting aircraft. NTSB recommended that FS implement inspection and
maintenance programs suited to the demands of firefighting that are rooted in detailed
engineering assessments of aircrafts’ structural capacities. NTSB also recommended that FAA
be more actively involved in FS’ efforts to assess the airworthiness of its firefighting aircraft.
NTSB’s recommendations indicated that FS should develop assessment, inspection, and
maintenance programs for all of the agency’s firefighting aircraft.


OIG’s Findings and Recommendations

Overall, we concluded that FS has made strides toward improving its air safety program, but the
agency still needs to develop and implement an airworthiness assessment, inspection, and
maintenance program geared towards the particular demands of the firefighting flight
environment.

3
  The panel was jointly commissioned by FS and the Department of Interior’s Bureau of Land Management, and its
analysis covers both aviation safety programs.
4
  NTSB’s “Safety Recommendation” (April 23, 2004).
                                                                                                                      13


FS must still develop an overall implementation plan to ensure the airworthiness of all its
firefighting aircraft. As it implements the airworthiness program, FS must ensure that the planes
it employs on Federal fires (owned, contracted, or loaned to States) are held to the improved
standards determined from the airworthiness assessments. 5 To that end, FS has been addressing
the immediate risks identified for some of the aircraft used for fire suppression. It now needs to
finalize a long-term risk management and airworthiness program for all of its firefighting
aircraft. Such proactive planning will require FS to overcome technical and financial challenges
and to establish realistic timeframes that prioritize its aircraft assessments. Without adopting this
approach, FS lacks assurance that it is using its resources optimally to mitigate the considerable
risks that come with firefighting missions.


FS has begun assessing its most at-risk aircraft, including its air tankers and lead planes, and
agency officials are strategizing about expanding these assessments to include all the agency’s
owned and contracted aircraft. However, the agency has not developed plans to include in these
assessments the firefighting aircraft it loans to States through the Federal Excess Personal
Property Program (FEPP). Through the FEPP, FS loans the aircraft to States for firefighting but
retains title to the aircraft. FS pays part of the costs when States use the aircraft to fight federally
managed fires. The aircraft must meet the same standards FS requires for its other firefighting
aircraft. However, since FS retains title to the loaned aircraft wherever they fly, the agency has
acknowledged it may have some limited degree of liability for the aircraft.


Considering the well-documented safety concerns with firefighting aircraft, FS, at a minimum,
should require that States maintain and assess FEPP aircraft used on Federal fires in accordance
with FS standards. This prerequisite would also be consistent with its plan to require that all
aircraft used on Federal fires comply with the NTSB’s recommendations. FS should develop a
plan to assist States in assessing FEPP aircraft used on Federal fires. The plan should ensure that
States prioritize their work based on risk and should include realistic timeframes for completion.



5
 These standards include assessment of criteria such as each aircrafts’ original design; Original Equipment
Manufacturer service life expectancy; number of hours the specific aircraft has flown in its original design
environment and in a fire suppression environment; considering potential adjustments to the aircraft’s service life
expectancy, and determining a required maintenance/ inspection program to ensure continued air worthiness.
                                                                                                 14


For the aircraft not used on Federal fires, FS needs to decide the level of risk it is willing to
accept. For example, FS can accept the liability risk without any action, or it can require that the
remaining FEPP aircraft also meet FS’ standards as a precondition for States in borrowing the
aircraft. While States that do not participate on Federal fires are not currently required to meet
FS’ standards, the law does allow FS to impose its own self-prescribed program. 6


During our audit, we also found that FS does not ensure that all of the light fixed-wing planes
and firefighting helicopters leased from private contractors are inspected and maintained by
qualified personnel. Consequently, FS’ contract aircraft are at greater risk of being improperly
maintained and therefore are vulnerable to the consequential hazards that follow, such as
inadequate performance and accidents. As a result of our recommendations, FS is amending its
policy to ensure leased aircraft are inspected and maintained by qualified personnel.


ONGOING AND PLANNED AUDITS AND INVESTIGATIONS


As part of OIG’s efforts to help FS improve the efficiency and effectiveness of its operations, we
have initiated or planned a number of audits for FY 2008. These audits include assessments of
the effectiveness of using contract labor crews for firefighting and hazardous fuels removal,
replacement plan for firefighting aerial resources, firefighting succession planning (especially for
key positions such as incident commander), and information technology acquisition.


OIG also conducts investigations of allegations of wrongdoing involving FS programs, activities,
and employees. In particular, OIG has a statutory duty to conduct an independent investigation
into the death of an officer or an employee of FS that is caused by wildfire entrapment or
burnover and to provide the results of our investigation to the Secretary and Congress. 7 To
ensure that relevant OIG personnel acquire and maintain the knowledge and skills necessary to
meet the requirements of this law, we established our Wildland Fire Investigation Team (WFIT).
The WFIT is comprised of OIG criminal investigators who have received extensive training in
the highly specialized field of wildland fire fighting. OIG currently has two investigations


6
    41 CFR 102-33.170 (July 1, 2006).
7
    P.L. 107-203, enacted July 24, 2002.
                                                                                                  15


ongoing related to FS firefighter fatalities. The first pertains to the Thirtymile Fire that occurred
in July 2001 in the Chewuch River Canyon area north of Winthrop, Washington State. The
second ongoing investigation pertains to the FS fatalities that occurred during the Esperanza Fire
that occurred in October 2006 in Riverside County, California.


I want to express my thanks to the dedicated FS officials and employees for the assistance and
cooperation they continually extend to OIG during the conduct of our work. We recognize and
appreciate the important work that FS does to provide effective stewardship of America’s
national forests, and we look forward to continuing our productive working relationship.


This concludes my testimony.        Thank you again for inviting OIG to testify before the
Subcommittee. I would be pleased to address any questions you may have.
